Report No. D-2009-003         October 9, 2008




   Internal Controls Over Army General Fund,
      Cash and Other Monetary Assets Held
     Outside of the Continental United States
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations

AGF                    Army General Fund
AR                     Army Regulation
COMA                   Cash and Other Monetary Assets
DASA (FO)              Deputy Assistant Secretary of the Army Financial Operations
DDS                    Deployable Disbursing System
DFAS                   Defense Finance and Accounting Service
DO                     Disbursing Officer
DoD FMR                DoD Financial Management Regulation
DSSN                   Disbursing Station Symbol Number
FASAB                  Federal Accounting Standards Advisory Board
FINCOM                 Finance Command
ITS                    International Treasury Service
LDA                    Limited Depository Account
MBF                    Military Banking Facility
OCONUS                 Outside the Continental United States
OMB                    Office of Management and Budget
ORF                    Official Representation Funds
SFFAS                  Statement of Federal Financial Accounting Standards
SOA                    Statement of Accountability
SOP                    Standard Operating Procedures
STANFINS               Standard Finance System
SRD-1                  STANFINS Redesign Subsystem 1
USACE                  United States Army Corps of Engineers
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704


                                                                                   October 9,2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                   FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                  OPERATIONS)


SUBJECT:      Internal Controls Over Anny General Fund, Cash and Other Monetary Assets Held
              Outside of the Continental United States
              (Report No. D-2009-003)

We are providing this report for infonnation and llse. We perfonned this audit in response to a
request made by the Deputy Assistant Secretary of the Almy (Financial Operations). We
considered management comments on a draft of this report in preparing the final rcport.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The Deputy
Assistant Secretary of Anny (Financial Operations) comments were partially responsive on
Recommendation A.I.c. Thcrefore, we request additional comments on this recommendation by
November 10,2008. We considered all other comments responsive.

We appreciate the courtesies extended to the statT. Questions should be directed to Mr. James
Fleischman al (703) 601-5954 (DSN 329-5954) or Mr. Thomas Daquano at (703) 601-5934
(DSN 329-5934). The team members are listed inside the back cover.



                                            ~                   aJJ1wdv
                                             Patncia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Financial Auditing Service
                    Report No. D-2009-003 (Project No. D2007-D000FP-0122.000)
                                         October 9, 2008

               Results in Brief: Internal Controls Over Army
               General Fund Cash and Other Monetary
               Assets Held Outside of the Continental
               United States
                                                            •   Army disbursing offices using the
What We Did                                                     Deployable Disbursing System
                                                                misclassified more than $266 million in
Our overall audit objective was to determine                    contingency cash as funds with agents or
whether internal controls for Army General                      Limited Depository Accounts.
Fund Cash and Other Monetary Assets (COMA)
Held Outside of the Continental United States
were effectively designed and operating to               What We Recommend
safeguard, account for, and report COMA.                 The DASA [FO] should:
                                                            • Coordinate with the DFAS Director of
What We Found                                                  Information Technology, Systems
                                                               Management, to develop capability
Security plans and physical controls over                      within Deployable Disbursing System to
COMA were adequate. Semiannual security                        identify and report by location the
reviews were performed, Statement of                           amounts for each category of COMA;
Accountability documents were determined to                 • Consolidate all Army disbursing station
be accurate (except as noted in the findings),                 data into a centralized database or
and observed cash counts agreed with cash                      system;
balances reported on the Statement of                       • Facilitate the timely recording of
Accountability. However, some Army and                         Afghanistan disbursements by
Defense Finance and Accounting Service                         purchasing scanning equipment for use
(DFAS) internal controls over COMA held                        by disbursing station 5570 officials (or
outside of the continental United States were not              modify reporting procedures to allow
effective:                                                     Afghanistan deputy disbursing offices to
                                                               record cash disbursements);
   •   The Deputy Assistant Secretary of the                • Provide consistent guidance and
       Army (Financial Operations) (DASA                       procedures for reporting contingency
       [FO]) was not able to provide a                         cash, to allow DoD contractor-operated
       verifiable detailed listing of the universe             military banking facilities to overcome
       of COMA reported on the Army General                    system limitations;
       Fund balance sheet.                                  • Report a material control weakness for
   •   Deputy Disbursing Officers in                           COMA in the Army’s Annual Statement
       Afghanistan did not record                              of Assurance and Annual Financial
       disbursements and collections on a                      Report until these recommendations are
       timely basis and the June 30, 2007                      implemented.
       balance sheet COMA line was
       overstated by approximately
       $114 million.                                     Client Comments and Our
   •   The Army General Fund balance sheet               Response
       misclassified some line items as COMA.
       Therefore, the Army General Fund                  The DASA (FO) and DFAS, Indianapolis
       Balance Sheet was overstated by more              concurred with Recommendations A.1.a, A1.b,
       than $206 million as of June 30, 2007.            B, and G. Therefore no further action is needed.
                                                         However, DASA (FO) was partially responsive
                                                         to Recommendation A.1.c.

                                                     i
                Report No. D-2009-003 (Project No. D2007-D000FP-0122.000)
                                     October 9, 2008

Recommendations Table
Client                             Recommendations           No Additional Comments
                                   Requiring Comment         Required
Deputy Assistant Secretary for the A.1.c.                    A.1.a.-A.1.b., B, and G
Army (Financial Operations)

Defense Finance and Accounting                               A.1.a.-A.1.b.
Service, Information Technology,
Systems, Management, Director
Defense Finance and Accounting                               B
Service, Indianapolis, Disbursing
Operations, Director




                                           ii
Table of Contents

Results in Brief                                                     i

Introduction                                                         1

       Objectives                                                   1
       Background                                                   1

Finding A. Universe of Cash and Other Monetary Assets                5

       Recommendation                                                8

Finding B. Reporting of Disbursements and Collections               11

       Recommendation                                               12

Finding C. Reporting of Non-Army Funds                              13

       Corrective Action                                            14

Finding D. Reporting of Cash and Other Monetary Assets              15

       Recommendation                                               17

Finding E. Use of Cash for Official Representation Funds Payments   19

       Corrective Action                                            20

Finding F. Review of Limited Depository Account Balances            21

       Corrective Action                                            23

Finding G. Accuracy of Cash Categorization                          25

       Recommendation                                               27

Finding H. Intelligence Contingency Funds                           29

       Corrective Action                                            30
Table of Contents (Cont’d)
Appendices

      A.   Scope and Methodology                                          31
      B.   Prior Coverage                                                 35
      C.   Glossary                                                       37
      D.   Total Balance Sheet Overstatement                              39
      E.   Statement of Accountability                                    41
      F.   Official Representation Funds Memorandum                       43
      G.   Electronic Funds Transfer Contract Payment Memorandum          45
      H.   Non-Cash Statement of Accountability Line
               Items                                                      47
      I.   Army Disbursing Stations Visited                               49
      J.   Guidance for International Treasury Services Usage             51
      K.   Reporting Entities and Computer Systems Used to Manage
               Cash and Other Monetary Assets                             53
      L.   Interim Change to AR 381-141, Intelligence Contingency Funds   55

Client Comments

      Army                                                                57
      Defense Finance and Accounting Service Indianapolis                 61
Introduction
Objectives
The objective of this audit was to determine whether internal controls for Army General
Fund, Cash and Other Monetary Assets held outside of the continental United States were
effectively designed and operating to safeguard, account for, and report Cash and Other
Monetary Assets.


Background
         Cash and Other Monetary Assets Definition. The Cash and Other Monetary
         Assets (COMA) account represented a material line item * on the September 30,
         2007, DoD Agency-Wide Consolidated Balance Sheet. The Federal Accounting
         Standards Advisory Board (FASAB) Statement of Federal Financial Accounting
         Standards (SFFAS) No.1, "Accounting for Selected Assets and Liabilities,"
         March 30, 1993, defines cash as: (a) coins, paper currency and readily negotiable
         instruments, such as money orders, checks, and bank drafts on hand or in transit
         for deposit; (b) amounts on demand deposit with banks or other financial
         institutions; and (c) foreign currencies.

         Cash is classified as either entity cash or nonentity cash, and these are reported
         separately on Federal financial statements. Entity cash is the amount of cash that
         the reporting entity holds and is authorized by law to spend. Nonentity cash is
         collected and held by the reporting entity on behalf of another Federal entity or
         the U.S. Government, and these funds are not available for use by the reporting
         entity. In some circumstances, the entity deposits cash in its accounts in a
         fiduciary capacity for the Department of Treasury (Treasury) or other entities.
         Nonentity cash should be reported separately from entity cash.

         Restrictions are usually imposed on cash deposits by law, regulation, or
         agreement. Nonentity cash is always restricted cash. Entity cash may be
         restricted for specific purposes. Such cash may be in escrow or other special
         accounts. Financial reports should disclose the reasons for and nature of
         restrictions.

         Office of Management and Budget Circular A-136, “Financial Reporting
         Requirements,” June 2007, defines other monetary assets as gold, special drawing
         rights, and U.S. Reserves in the International Monetary Fund. Treasury primarily
         uses this category.

         Cash Balance. DoD reported $15 billion on its DoD Agency-Wide Consolidated
         Balance Sheet as of September 30, 2007. However, only $2.6 billion was DoD
         cash. The remaining $12.4 billion was Foreign Military Sales Trust Fund cash.
         The Army General Fund (AGF) represents $2.2 billion, or 83.1 percent, of DoD


*
 According to the American Institute of Certified Public Accountants, the auditor’s consideration of
materiality is a matter of professional judgment and is influenced by the auditor’s perception of the needs
of users of the financial statements. In addition, materiality judgments are made in light of surrounding
circumstances and involve both quantitative and qualitative considerations.


                                                      1
Agency-Wide COMA. The $2.2 billion in AGF COMA includes $2.15 billion
(98.4 percent) outside the continental United States (OCONUS) and $33.6 million
(1.6 percent) inside the continental United States. The Army was not able to
provide the volume of cash it collected and disbursed during FY 2007.

Cash Reporting to the U.S. Treasury. Each month, disbursing officers and
agencies report their accountability and transactions to the Treasury on the
following standard forms (SF):

   •   SF 1219, Statement of Accountability (SOA), and
   •   SF 1220, Statement of Transactions.

The SOA summarizes collection and disbursement activity for the month. In
addition, the SOA is used to determine the accountability of disbursing officers
for funds held outside the Treasury (known as “cash on hand”). See Appendix E
for an example of the SOA.

The Statement of Transactions shows a detailed account classification of the
collections and disbursements processed in a disbursing officer’s accounts for the
current accounting period.

Cash Reporting on the Army General Fund Balance Sheet. The Army
accounting systems lack a single, standard transaction-driven general ledger. In
addition, these systems are unable to meet all of the requirements for accrual
accounting. Therefore, Defense Finance and Accounting Service (DFAS)
Indianapolis prepares a journal voucher to record COMA on the AGF balance
sheet. The journal voucher is supported by the Army’s consolidated SOA.
Without the journal voucher, the Army’s consolidated SOA would not reconcile
to the COMA reported on the AGF balance sheet.

Army Management Structure. The Army management structure is
decentralized. Army COMA is managed by the U.S. Army Finance Command,
the U.S Army Corps of Engineers, and DFAS Indianapolis Disbursing Operations
Directorate (DFAS Disbursing Operations). Army disbursing officers provide
funds to deputy disbursing officers and paying agents or may authorize deputy
disbursing officers to obtain funds.

A disbursing officer (DO) is a military member or civilian employee of a DoD
component designated to make disbursements in accordance with laws and
regulations governing the disbursement of public monies. All DO appointees
must be U.S. citizens.

A disbursing office is an activity, or the organizational unit of an activity, whose
principal function consists of the disbursement, collection, and reporting of public
funds. Disbursing offices are assigned Disbursing Station Symbol Numbers
(DSSNs). See Appendix I for the DSSNs we visited and Appendix K for the
reporting entities and computer systems used to manage COMA reported on the
AGF balance sheet.

Army Disbursing Officer Cash. Army DOs obtain cash by writing a Treasury
check made out to themselves (or an agent) and presenting it to a bank. DoD
refers to this process as “Exchange for Cash Check”. .Cash is used to: establish
change funds and custodian imprest funds, fund accommodation transactions, and
pay for goods and services and classified and contingency missions.

                                     2
Effective Controls Over Existence and Accountability
    We performed field work at Army disbursing stations. We observed conditions,
    verified existence, compared accountability documents, analyzed accountability
    documents, and interviewed staff to determine whether internal controls were
    designed and operating as intended.

    We determined that the OCONUS Army disbursing stations we visited had
    effective controls over existence and accountability. The security plans and
    physical controls over COMA at disbursing offices we visited were adequate.
    Semiannual security reviews were performed, SOA documents were accurate
    (except for the conditions stated in the findings), and observed cash counts agreed
    with cash balances reported on the SOAs. However, we identified eight findings.
    (See Findings A through H.)




                                         3
4
Finding A. Universe of Army Cash and Other
Monetary Assets
The Deputy Assistant Secretary of Army (Financial Operations) was not able to provide a
verifiable detailed listing of the universe of Cash and Other Monetary Assets reported on
the Army General Fund balance sheet. Specifically, U.S. Finance Command and DFAS,
Indianapolis Disbursing Operations personnel were not able to provide detailed month-
end data for each DSSN by: category of Cash and Other Monetary Assets, disbursing
officer, deputy disbursing officer, and paying agents that report to the disbursing officer.

This occurred because the Deputy Assistant Secretary of the Army, (Financial
Operations) had not established a centralized financial management system to provide
this data. As a result, management:

   •   could not monitor the effectiveness of the internal controls by performing
       reviews, reconciliations and comparisons of data;
   •   could not provide supporting data and audit trails in a timely manner to confirm
       balances reported on the balance sheet;
   •   could not share information with outside auditors and organizations in an
       efficient, effective and timely manner, as required by Office of Management and
       Budget Circular A-123; and
   •   was unprepared to submit audited financial statements, as required by Office of
       Management and Budget Circular A-136.

Reporting COMA on the Balance Sheet
As of June 30, 2007, the AGF reported COMA of $2,215,207,435. Army DOs held
$2,186,514,250 of this (98.7 percent) at OCONUS disbursing stations. The management
of Army DOs and disbursing stations is decentralized. U.S. Army Finance Command
(FINCOM) manages 22 OCONUS disbursing offices in places such as Korea, Belgium,
Afghanistan, and Iraq. In addition, DFAS Disbursing Operations uses deputy DOs to
manage Army disbursing offices located in Afghanistan, Egypt, and Japan. Finally, the
U.S. Army Corps of Engineers (USACE) manages a disbursing station in Tennessee.
(See Appendix I for a list of Army disbursing offices we visited.)

DOs manage the 24 disbursing stations, and some DOs are responsible for more than one.
DOs may have numerous deputy DOs and paying agents that obtain cash from the DOs to
conduct Army business. The deputy DOs manage small disbursing and collections
offices and report to the DO, whereas paying agents conduct business for the Army one
mission at a time.

Deputy DOs complete a Daily Agent Accountability Summary, DD form 2665. The DOs
complete a Daily Statement of Accountability, DD form 2657, and at month-end they
transmit a monthly SOA to DFAS Indianapolis. DFAS Indianapolis combines all DO
monthly SOAs and provides a consolidated Army SOA to Treasury. The categories of
COMA reported on the SOA include: limited depository accounts, cash and foreign
currency on hand, funds with agents, dishonored checks, and losses of funds. Other
categories of responsibility reported on the SOA include disbursements, deposits, and
exchange gains and losses.




                                             5
DOs report the results of their operations using three separate reporting systems,
depending upon the management organization. FINCOM uses the Deployable
Disbursing System (DDS). DFAS Disbursing Operations uses STANFINS Redesign
Subsystem 1 (SRD-1), a module within Standard Finance System (STANFINS). USACE
uses Corps of Engineers Financial Management System. The values from the DO’s
month-end SF 1219 are input into STANFINS, which feeds the DFAS Indianapolis
Headquarters Accounting and Reporting System. Departmental Accounting uses
Headquarters Accounting and Reporting System as its source for the COMA amount on
the AGF balance sheet.

Army management explained that the three reporting systems were developed to satisfy
requirements to report accountability data to the U.S. Treasury at the DO level. The
systems were not developed to provide visibility below the DO.

Criteria
The Office of Management and Budget (OMB) provides guidance to Federal financial
managers regarding internal controls, financial management systems, financial reporting,
and audit requirements. Guidance relevant to this finding includes:

   ● OMB Circular A-123, “Management’s Responsibility for Internal Control,”
     December 21, 2004,
   ● OMB Circular A-127, “Financial Management Systems,” July 23, 1993,
   ● OMB Circular A-136, “Financial Reporting Requirements,” June 2007, and
   • OMB Bulletin 07-04, “Audit Requirements for Federal Financial Statements,”
     September 4, 2007.

OMB Circular A-123. This circular requires management to assess internal controls
over financial reporting. Management ensures that information is communicated to
relevant personnel at all levels within an organization and that the information is relevant,
reliable, and timely. It is also crucial that an agency communicate with outside
organizations as well, whether providing information or receiving it. Management
monitors the effectiveness of the internal controls in the normal course of business
through periodic reviews, reconciliations or comparisons of data; and directs the testing
of data. Management’s responsibilities for internal controls include having: 1) a clear,
organized strategy with well-defined documentation processes that contain an audit trail,
2) verifiable results, and 3) specific document retention periods so that someone
unfamiliar with the procedures can understand the assessment process.

OMB Circular A-127. This circular requires agency financial managers to develop,
operate, evaluate, and report on financial management systems. The systems should
provide timely, useful financial information and should allow for system monitoring to
ensure the integrity of financial data. Financial management systems must be in place to
process and record financial events effectively and efficiently, and to provide complete,
timely, reliable and consistent information for decision makers and the public. Useful
financial management information on Federal Government operations allows
management to carry out its fiduciary responsibilities; deter fraud, waste, and abuse of
Federal Government resources; and facilitate efficient and effective delivery of programs.

OMB Circular A-136. This circular requires the submission of audited financial
statements to OMB by November 15 of each fiscal year.




                                             6
OMB Bulletin 07-04. This bulletin establishes the components of executive departments
and agencies required to prepare financial statements. One of the components listed for
the Department of Defense is “Department of Army General Funds.”

Universe of Cash
The Deputy Assistant Secretary of Army (Financial Operations) (DASA [FO]) was not
able to provide a verifiable detailed listing of the universe of COMA, as required by both
OMB Circular A-123 and OMB Circular A-127. A timeline of the data requested and
received is as follows:

                          Table 1. Timeline of Data Provided

                                         Number of
  Date            Action                  DSSNs               Associated Anomalies
  1/25/07 Data request for all              --                          --
          disbursing stations
  3/16/07 FINCOM data received                       22 No amounts provided. No
                                                        Deputy Disbursing Officers
                                                        provided.
  4/10/07 USACE data received                         1 None
  4/23/07 DFAS Disbursing                             1 No paying agents listed.
          Operations data                               Missing a closing disbursing
          received                                      station.
  5/14/07 FINCOM data received                        1 No paying agents listed.
                                                        Missing 1 in-theater disbursing
                                                        station.
   7/6/07 FINCOM data received                       11 9 disbursing stations not
                                                        received.

On January 25, 2007, we asked DASA (FO) to provide the geographic location of all
Army COMA being held outside of the United States. Specifically, we requested the
name of the accountable individual, the amount of funds authorized to be held, and the
actual amount of funds held. Also, we requested the number of transactions that had
taken place during the first quarter of 2007.

On March 16, 2007, FINCOM officials provided a list of 22 Army disbursing stations by
location. However, they did not report the amount of cash under the control of the DO by
disbursing station, as requested.

On April 23, 2007, Disbursing Operations provided the disbursing officer, deputy
disbursing officers, and total accountability for DSSN 5570 by the various categories of
COMA and accountability. However, they did not provide the data for one disbursing
station in the process of closing.

On May 14, 2007, FINCOM officials performed a data call and provided the Asian
theater data. Although we had originally requested the data on January 25, 2007, it took
the organization more than 3 months to provide incomplete and untimely information.
Additionally, the auditors had already planned and received theater clearance for a site
visit to Korea that was scheduled to begin June 3, 2007.


                                            7
By July 6, 2007, FINCOM provided comparable data for 11 disbursing offices located in
Europe and Southwest Asia. However, auditors had already planned and received theater
clearance for a site visit to Europe that was to begin the next day, July 7, 2007. FINCOM
provided no data for nine disbursing stations.

This occurred because DASA (FO) did not have a centralized financial management
system to provide this data. Instead, Army managers obtained incomplete information
through a series of data calls to DOs.

Management Monitoring
Army management was not able to provide supporting data with audit trails to verify the
balances reported on the balance sheet in a timely manner. Because data is not readily
available, Army management may not be able to monitor the effectiveness of the internal
controls in the normal course of business through periodic reviews, reconciliations or
comparisons of data, and data testing. Financial management systems must be in place to
process and record financial events effectively and efficiently, and to provide complete,
timely, reliable and consistent information. A useful financial management information
system allows management to carry out its fiduciary responsibilities; deter fraud, waste,
and abuse of Federal Government resources; and facilitate efficient and effective delivery
of programs. Army management cannot communicate information to outside
organizations, such as external auditors, to use for statistical analysis and sampling, in an
efficient, effective, and timely manner as required by OMB Circular A-123. As a result,
future audits may be difficult and costly to perform, and Army management may remain
unprepared to submit audited financial statements by November 15 each year, as required
by OMB Circular A-136.


Coordination with Management
We conducted numerous meetings with the DASA (FO), DFAS, and FINCOM
management to inform them of the issues discussed above. We also met to obtain an
understanding of the technical difficulties associated with achieving a solution to the
problems we cited in Finding A. Army and DFAS staff requested that we address our
recommendation to the Defense Finance and Accounting Service, Director, Information
Technology, Systems Management Directorate.

Recommendation, Client Comments, and Our Response
A.1. We recommend that the Deputy Assistant Secretary of Army (Financial
Operations):

       a. Coordinate with the Defense Finance and Accounting Service,
Information Technology, Systems Management, Director to develop the capability
within Deployable Disbursing System to identify all disbursing officers, deputy
disbursing officers, and paying agents that report to the disbursing officer by
location, and the amounts for each category of Cash and Other Monetary Assets as
captured on the statements of accountability.


Client Comments
The Deputy Assistant Secretary of the Army (Financial Operations) and DFAS
Indianapolis concurred. A system change request to centrally gather and warehouse


                                             8
Deployable Disbursing System data from each disbursing office level database has been
approved. Implementation is scheduled for July 2009.


Our Response
We consider the management comments to be responsive.

       b. Consolidate data reported by all Army disbursing stations into a
centralized database or system. The centralized system should be able to report all
disbursing officers, deputy disbursing officers, and paying agents that report to the
disbursing officer by location and amount for each category of Cash and Other
Monetary Assets as captured on the statements of accountability.

Client Comments
The Deputy Assistant Secretary of the Army (Financial Operations) and DFAS
Indianapolis concurred. DASA (FO) and DFAS will work together to centralize all the
DDS databases in one location. However, DFAS stated the process could be somewhat
labor intensive. Implementation is scheduled for July 2009.


Our Response
We consider the management comments to be responsive.

     c. Report a material weakness for Cash and Other Monetary Assets in the
Army Annual Statement of Assurance and Annual Financial Report until all the
recommendations in this report have been implemented.


Client Comments
DASA (FO) concurred. The FY 08 Annual Statement of Assurance reports Fund Balance
with Treasury as a material weakness. Open recommendations will be reported and
tracked in the Army’s Financial Improvement Plan and the Department’s Financial
Improvement Audit Readiness Plan.


Our Response
We consider the management comments to be partially responsive. We recommend that
the DASA (FO) report a material weakness for COMA, not as a Fund Balance with
Treasury material weakness. We request that the DASA (Financial Operations)
reconsider their position.




                                          9
10
Finding B. Reporting of Disbursements and
Collections
DFAS Disbursing Operations (DSSN 5570) did not record disbursements and collections
made by deputy disbursing officers in Afghanistan on a timely basis. According to
DFAS officials, their Disbursing Operations did not record the disbursements and
collections because deputy disbursing officers in Afghanistan lacked the electronic
equipment needed to post these amounts. Instead, disbursements were mailed, processed,
and recorded weeks after they took place. As a result, the June 30, 2007, Army General
Fund balance sheet Cash and Other Monetary Assets line was overstated by
approximately $114 million.

DFAS OCONUS Disbursing Sites (DSSN 5570)
As of June 30, 2007, DSSN 5570 was accountable for more than $287 million in COMA,
representing approximately 13 percent of total Army accountability. DSSN 5570 has
OCONUS deputy DOs in Afghanistan, Egypt, Germany, Honduras, and Japan. The
locations in Afghanistan include: Bagram, Camp Vance, Jalalabad, Kabul, Kandahar,
Task Force Phoenix, Salerno, and Sharana.

Criteria
DoD Financial Management Regulation (DoD FMR), volume 6b, chapter 2, “General
Instructions for the Financial Statements,” January 2006, states that “entity management
is responsible for ensuring that the data originating outside of the official accounting
system is provided to the accounting organization in a timely manner, that it is complete,
and that there are adequate internal controls and audit trails to ensure the data is
accurate.”

DoD FMR, volume 5, chapter 19, “Disbursing Officer Accountability Reports,” April
2007, states that line 6.5 includes the amount of funds in the hands of deputies, cashiers,
imprest fund cashiers, collection agents, paying agents, and change fund custodians at
locations other than the main disbursing office. DoD FMR, volume 6b, chapter 4,
“Balance Sheet,” January 2006, states that disbursing officer cash reported on the SF
1219, “Statement of Accountability,” should be reported on the COMA line of an entity’s
balance sheet.

Reporting Deputy Disbursing Officer COMA
DFAS Disbursing Operations did not record disbursements and collections made by
deputy disbursing officers in Afghanistan on a timely basis. Deputy DOs prepare a
DD 2665, “Daily Agent Accountability Summary,” which summarizes transactions for
each business day. Normally, these records are used to record disbursements and
collections in the SRD-1 system. However, because personnel in Afghanistan lacked
scanning equipment to update SRD-1, disbursements and collections made by deputy
DOs in Afghanistan were not recorded in SRD-1. DFAS Disbursing Operations
personnel stated that the deputies in Afghanistan lacked scanning equipment because of
budget issues. This inability to scan caused significant reporting delays.

DoD IG Draft Report for Project No. D2006FL-028, “Internal Controls over Out-Of-
Country Payments,” February 11, 2008, stated that the Army and DFAS addressed the
documentation problem in Iraq and Kuwait. Specifically, Army and DFAS purchased
40 scanners to be distributed to the Army contingency disbursing stations in Iraq and


                                            11
Kuwait. These disbursing stations will scan each day’s disbursement documentation and
submit the data to DFAS Rome to be reviewed for document quality and completeness.

Conclusion
The lack of scanning equipment in Afghanistan resulted in an overstatement of the
COMA line on the June 30, 2007, AGF balance sheet of $113,875,757. The new
scanning equipment will help eliminate timing differences and improve the reliability of
the financial statements. (See Appendix D for a complete list of overstatements to
COMA on the June 30, 2007, balance sheet)

Army Management has expressed concern that purchasing and deploying scanning
equipment to Afghanistan, in itself, would not resolve timing differences and improve the
reliability of the financial statements. Management stated that there may not be sufficient
bandwidth and other infrastructure to operate the scanning equipment. We did not visit
Afghanistan or conduct interviews. Therefore, we have not been able to investigate
management’s concerns.

Management has proposed to modify reporting procedures for Afghanistan Army deputy
DOs and DFAS Disbursing Operations to record cash disbursement in-transit vouchers as
deferred vouchers on line 7.1 of the SOA. Under this scenario, the deferred-vouchers
category would include vouchers in transit between the Afghanistan theater and DFAS
Disbursing Operations, and vouchers in transit from DFAS Disbursing Operations to
Rome for input into vendor pay. This amount should be reported in the Army's financial
statements under the appropriate non-COMA asset line. Although we strongly favor
using scanning equipment to transmit documents and eliminate timing differences, we
accept management’s alternative solution if there is not sufficient bandwidth and other
infrastructure to operate the scanning equipment.


Recommendation, Client Comments, and Our Response
B. We recommend that the Deputy Assistant Secretary of Army (Financial
Operations) and Director, Defense Finance and Accounting Service-Indianapolis,
Director Disbursing Operations:

       Facilitate the timely recording of Afghanistan disbursements by purchasing
scanning equipment for use by disbursing station 5570 officials or, until this is
feasible, modify reporting procedures for Afghanistan Army Deputy Disbursing
Officers and Disbursing Operations to record cash disbursements.


Client Comments
The DASA (Financial Operations) and DFAS Indianapolis concurred. DFAS has revised
reporting of cash disbursement in-transit vouchers as deferred vouchers on Line 7.1 of the
SOA. Therefore, they will not be included as COMA on the financial statements.
Additionally, DFAS has purchased hardware so that they can image vouchers in theater.

Our Response
We consider the DASA (FO) and Director, DFAS Indianapolis comments to be
responsive.




                                            12
Finding C. Reporting of Non-Army Funds
DFAS Indianapolis accounting personnel erroneously included Cash and Other Monetary
Assets held by a non-Army Defense Organization in the Army General Fund balance
sheet Cash and Other Monetary Assets line. This occurred because DFAS, Indianapolis
accounting personnel did not have clear, complete standard operating procedures to
compile the Army General Fund balance sheet Cash and Other Monetary Assets line. As
a result, the Army General Fund balance sheet Cash and Other Monetary Assets line was
overstated by approximately $994,000 as of June 30, 2007.

Balance Sheet Compilation
DFAS Indianapolis accounting personnel prepare the AGF quarterly financial statements
and prepare a journal voucher to record disbursing officer COMA reported on the SOA
into the AGF General Ledger. DFAS Indianapolis issues standard operating procedures
(SOPs) to provide instructions on how to prepare the journal voucher. Specifically,
SOP 1100, “Statement of Accountability,” May 2005, provided procedures on how to
prepare a journal voucher to record disbursing officer COMA reported on the SOA into
the AGF General Ledger. This SOP did not specifically include or exclude non-Army
DoD organizations, but DFAS Indianapolis erroneously included non-Army COMA on
the AGF Balance Sheet.

Criteria
According to OMB Circular A-136, “Financial Reporting Requirements,” June 2007, the
balance sheet presents amounts of future economic benefits owned or managed by the
reporting entity (assets), amounts owed by the entity (liabilities), and amounts which
compose the difference (net position). The DoD FMR, volume 6b, chapter 2, “General
Instructions for the Financial Statements,” January 2006, states that “entity management
is responsible for ensuring that the data originating outside of the official accounting
system is provided to the accounting organization in a timely manner, that it is complete,
and that there are adequate internal controls and audit trails to ensure the data is
accurate.”

DoD FMR, volume 6A, chapter 2, “Financial Reports, Roles, and Responsibilities,”
March 2002, requires DFAS to review financial reports to assess the accuracy of reported
financial information and to take corrective action to improve the timeliness and quality
of financial reports. Also, the DoD FMR requires DFAS to establish procedures to
ensure that data provided by the customer is recorded in an accurate and timely manner
into its finance and accounting systems.

Compilation of Data
DFAS, Indianapolis accounting personnel erroneously included COMA held by a non-
Army Defense Organization in the AGF balance sheet COMA line because they did not
have clear, complete procedures in place to for compiling input to the financial
statements. Specifically, DFAS Indianapolis SOP 1100, “Statement of Accountability,”
May 2005, did not contain any instructions for personnel to exclude non-Army defense
organizations during the balance sheet compilation process. DFAS Indianapolis
personnel determined that the SOP did not instruct them to exclude non-Army disbursing
stations. As a result, the AGF June 30, 2007, balance sheet was overstated by
$994,314.78. Having clear, complete guidance will help ensure that the financial


                                            13
statements are accurate. (See Appendix D for a complete list of overstatements to
COMA on the June 30, 2007, balance sheet)

Corrective Action
As a result of our audit, DFAS Indianapolis took immediate action. In December 2007, it
revised SOP 1100, “Statement of Accountability,” May 23, 2005, to ensure that non-
Army Defense Organization COMA is not reported as AGF COMA. The revised SOP
requires the non-Army Defense Organization’s SOA data to be excluded from AGF
COMA. Therefore, a recommendation is not necessary.




                                           14
Finding D. Reporting of Cash and Other
Monetary Assets
Statement of Accountability line items that were not Cash and Other Monetary Assets
were incorrectly posted to the Army General Fund Balance Sheet as Cash and Other
Monetary Assets. Specifically, the balance sheet included such items as Receivables,
Other Accountability, and Loss of Funds as Cash and Other Monetary Assets. This
occurred because the DoD Financial Management Regulation did not define which items
should be categorized as Cash and Other Monetary Assets. As a result, the Army
General Fund balance sheet was overstated by more than $206 million, as of June 30,
2007.

Journal Voucher Process
DFAS accountants use a journal voucher to post to the COMA line at the close of each
fiscal quarter. The journal voucher is supported by SOAs submitted by disbursing
officers. The “Total Disbursing Officer Accountability” line of the SOA includes such
items as “Cash on Deposit in Designated Depository,” “Losses of Funds,” and
“Receivables-Dishonored Checks.” See Appendix H for a list of the SOA line items and
their definitions.

Definition of Cash
Statement of Federal Financial Accounting Standard No.1 states that cash consists of: (a)
coins, paper currency, and readily negotiable instruments, such as money orders, checks,
and bank drafts on hand or in transit for deposit; (b) amounts on demand deposit with
banks or other financial institutions; and (c) foreign currencies, which for accounting
purposes should be translated into U.S. dollars at the exchange rate on the financial
statement date.

OMB Circular A-136, “Financial Reporting Requirements,” June 2007, uses the FASAB
definition for cash. OMB Circular A-136 defines other monetary assets as gold, special
drawing rights, and U.S. Reserves in the International Monetary Fund. OMB Circular
A-136 also states, “the components of cash and other monetary assets shall be disclosed
in the notes to the financial statement.”

The DoD FMR, volume 6b, chapter 4, “Balance Sheet,” January 2006, uses the FASAB
and OMB definition for cash and the OMB definition for COMA. Also, volume 6b,
chapter 4, states that disbursing officer cash reported on the SF 1219, SOA is also
reported on the COMA line of an entity’s balance sheet. DoD FMR, volume 5, chapter
19, “Disbursing Officer Accountability Reports,” August 1999, provides the SOA line
items and their definitions.




                                           15
Reporting COMA on the Balance Sheet
The AGF balance sheet included items that were not COMA SOA line items in the
COMA line. Specifically, the following non-COMA SOA line items were included in
the COMA account balance on the AGF consolidated balance sheet:

       •   Line 6.9 – Other Cash Items
       •   Line 7.3 – Loss of Funds
       •   Line 7.4 – Receivables-Dishonored
       •   Line 9.3 – Loss of Funds
       •   Line 9.4 – Other Accountability

We determined that these five SOA line items do not meet the definition of “cash” or
“other monetary assets.” We based our determination on the definitions provided in
SFFAS No.1 and DoD FMR, volume 5, chapter 19, “Disbursing Officer Accountability
Reports,” August 1999. For example, the DoD FMR states that line 7.3, “Loss of
Funds,” and 9.3, “Loss of Funds-Predecessor,” represent physical losses of cash. These
funds are not in the possession of the DO and should not be recorded on the balance
sheet. In addition, the DoD FMR states that line 7.4, “Receivables-Dishonored Checks”
is used to record any dishonored checks that are to be retained in DO accountability.
This money is not on hand and should not be included in COMA. See Appendix E for an
example of the SOA.

Criteria for Reporting COMA on the Balance Sheet
DoD FMR, volume 6b, chapter 4, does not define which SOA line items should be
categorized as COMA. The DoD FMR, volume 6b, chapter 4, states that disbursing
officer cash reported on the SF 1219, “Statement of Accountability,” is also reported on
the COMA line of an entity’s balance sheet. However, the SOA does not have a line item
titled “disbursing officer’s cash.” Also, volume 6b, chapter 4 explains that cash reported
on the DO SOA should be reported on the balance sheet cash line. However, the DoD
FMR does not define which of the SOA line items should be reported as cash on the
balance sheet.

DoD FMR, volume 5, chapter 19, “Disbursing Officer Accountability Reports,”
August 1999, provides the SOA line items and their definitions. See Appendix H for a
list of the SOA line items and their definitions from the DoD FMR, volume 5, chapter 19.

As of June 30, 2007, the AGF balance sheet overstated COMA by more than $206
million. Table 2 shows the Army SOA line items and their amounts that do not meet the
SFFAS No. 1 definition of cash, thereby overstating the AGF balance sheet COMA line.
(See Appendix D for the complete list of overstatements to COMA on the June 30, 2007,
balance sheet.)




                                           16
                      Table 2. Non-COMA SOA Line Calculation

                                                          Amount
                   Line           Line Title              Reported
                6.9         Other Cash Items            $204,056,300.00
                7.3         Loss of Funds                     61,318.74
                7.4         Receivables-
                            Dishonored Checks                134,757.01
                9.3         Loss of Funds-
                            Predecessor                    1,820,637.42
                9.4         Other Accountability              32,282.47
                Total                                   $206,105,295.64


Recommendation
This report is one in a series leading up to an agency-level review of DoD Cash and
Other Monetary Assets reporting. Assets that are incorrectly classified as Cash and Other
Monetary Assets not only affect the reporting component’s balance sheet, but also the
DoD balance sheet. We will make recommendations on this finding in the report,
“Internal Controls Over DoD Cash and Other Monetary Assets” (Project No. D2007-
D000FP-0174.000).


Client Comments on the Finding and Our Response
Although not required to comment, the Deputy Assistant Secretary of the Army
(Financial Operations) provided comments on the finding. For the full text of the DASA
(FO) comments, see the Client Comments section of the report.


Client Comments
The DASA (FO) did not agree with the amount of overstatement. Specifically, the
DASA (FO) believes that line 6.9, “Other Cash Items,” is part of the COMA calculation.
The DASA (FO) believes that the Balance Sheet was overstated by only $2 million, not
$206 million.


Our Response
The DASA (FO) did not disagree that lines 7.3, 7.4, 9.3 and 9.4 should not be categorized
as Cash and Other Monetary Assets. We believe that line 6.9 also should not be
classified as Cash and Other Monetary Assets. Issues related to Statement of
Accountability line items categorized as Cash and Other Monetary Assets are being
addressed to the OUSD(C)/CFO in “Internal Controls Over DoD Cash and Other
Monetary Assets” (Project No. D2007-D000FP-0174.000).




                                           17
18
Finding E. Use of Cash for Official
Representation Funds Payments
The Army used almost $600,000 in cash to make Official Representation Funds
payments for the 1-year period ending June 30, 2007. This occurred because the DoD
Financial Management Regulation does not mandate the use of the Government Purchase
Card to make Official Representation Fund payments. As a result, Army disbursing
officers and paying agents held additional cash to support payments for Official
Representation Funds. The increased cash raised the potential for losses and other risks
associated with holding cash.
Purpose of ORF
DoD Directive 7250.13, “Official Representation Funds” (ORF), January 12, 2005, states
that the purpose of ORF is “to host official receptions, dinners, and similar events, and to
otherwise extend official courtesies to guests of the United States and the Department of
Defense for the purpose of maintaining the standing and prestige of the United States and
the Department of Defense.” These events are often dinners and other events to build
relations with local officials. Often, ORF cash payments are made to vendors who also
accept the Government Purchase Card, such as the base commissary. We did not review
the appropriateness of ORF payments in this audit—our focus was on minimizing the use
of cash.

Criteria
The Treasury Financial Manual, volume 1, part 4, chapter 4500, “Government Purchase
Cards,” states, “Small purchases of up to $25,000 should be made using the Government
Purchase Card.” Other small purchase methods (imprest funds, third party drafts,
[Standard Form] SF-44 forms, and purchase orders) may only be used in lieu of the
Government Purchase Card when it is more cost-effective, practicable, or required by
existing statutes.”

The Federal Acquisition Regulation, subpart 13.2, "Actions at or Below the Micro-
Purchase Threshold," states, “The Government-wide commercial purchase card shall be
the preferred method to purchase and to pay for micro-purchases.” The Federal
Acquisition Regulation goes on to define micro-purchases as an acquisition of supplies or
services, the aggregate amount of which does not exceed the micro-purchase threshold.
Use of Cash for ORF Payments
For the 1-year period ending June 30, 2007, the Army used $595,878 cash instead of the
Government Purchase Card to make ORF payments at the locations we visited. The
$595,878 paid in cash was for 558 ORF payments made at two locations. During our
review of ORF payments we did not determine the appropriateness of the ORF payments,
but focused on the method of payment. The Treasury Financial Manual requires that
small purchases (not necessarily ORF) of up to $25,000 be made with the Government
Purchase Card.

The Army’s use of cash to make ORF payments increases the amount of cash held on
hand by disbursing personnel. DOs often determine the amount of cash to keep on hand
based on the historic amounts of cash held. Therefore, disbursing personnel who support
ORF cash payments are required to hold extra cash on hand to meet these needs.




                                            19
DoD FMR Guidance
The DoD FMR does not require the use of the Government Purchase Card to make ORF
payments. While criteria in the Treasury Financial Manual require the use of
Government Purchase Cards to make ORF payments, the DoD FMR lacks similar
guidance. Disbursing personnel and senior leaders may be unaware of the requirement to
use the Government Purchase Card because the DoD FMR does not include this
guidance.

Conclusion
The Army’s use of cash instead of the Government Purchase Card reduces the visibility
of purchases made, increases the potential for losses, and may increase its costs related to
holding cash. Although cash must be kept on hand at disbursing offices to make ORF
payments, there may be significant costs related to obtaining, storing, protecting,
disbursing, and accounting for cash. These costs may also take the form of time spent by
disbursing office personnel obtaining and securing the cash. The Government Purchase
Card helps to ensure the accountability for and transparency of ORF payments. Cash-
holders risk a loss of funds every time cash is used. This can be avoided by using the
Government Purchase Card, which does not require the holding of cash.

Corrective Action
As a result of our audit, the Deputy Chief Financial Officer of the Office of the
Undersecretary of Defense, Comptroller has taken appropriate corrective action.
Specifically, on December 18, 2007, the Deputy Chief Financial Officer of the Office of
the Undersecretary of Defense, Comptroller issued the memorandum, “Preferred
Payment Method for Official Representation Funds,” which states that:

   •   the Government Purchase Card is the preferred method of payment when the
       infrastructure supports Government Purchase Card usage; and

   •   a separate Government Purchase Card account should be established to ensure
       accountability and transparency of ORF expenditures.

Therefore, further recommendations are not necessary. (See Appendix F for the
memorandum in its entirety.)




                                             20
F. Review of Limited Depository Account
Balances
The Army cannot determine whether Treasury’s International Treasury Service is being
used effectively to keep funds held in Limited Depository Accounts at the minimum
amount needed to support Army operations. This is because the DoD Comptroller has
not established objective guidelines to evaluate funds needed. As a result, the U.S. Army
may be holding $172 million more than is necessary in Limited Depository Accounts.

Background
An option available to DOs for holding money outside of the Treasury is to keep it in
Treasury-approved Limited Depository Accounts (LDA). An LDA is a checking account
in a foreign currency maintained in a limited depository by a disbursing officer. As of
June 30, 2007, the Army reported $2.2 billion in total COMA, with $1.04 billion
reportedly held in LDAs. Army FINCOM, DFAS Disbursing Operations, and USACE
manage Army’s LDAs. The following chart provides a breakout of LDAs among the
different account holders:

         Table 3. Army Limited Depository Accounts as of June 30, 2007
          Organization       Number of LDAs            Balance of LDAs
Army FINCOM                         11                        $187,092,237.17
DFAS Disbursing                      8                          61,498,142.73
Operations
USACE Millington                     4                         792,329,636.51
Total                               23                      $1,040,920,016.41

USACE manages four LDA accounts with a total balance of $792 million. Of that total
$771 million (97 percent) were needed to meet requirements of the Status of Forces
Agreement with the Republic of Korea and may not be closed. Army FINCOM manages
11 LDA accounts with at total balance of $187 million. Of that total, $98 million (52
percent) were in restricted accounts and could not be closed. Because of the lack of
measurement criteria, we could not determine the need for the remaining $172 million of
the Army’s total LDAs.

International Treasury Services (ITS) is a Treasury-operated comprehensive payment and
collection system used for processing electronic and check payments for benefit
recipients, vendors, foreign payroll, and miscellaneous payment receipts. ITS transfers
funds directly from the Treasury to a payee without using an LDA. There are a wide
variety of benefits to using ITS instead of an LDA: reducing the amount of idle cash held
in LDA accounts, avoiding banking costs, and benefiting from competitive exchange
rates. Some Army LDA account holders already use ITS, and Air Force LDA holders
use it extensively. Air Force ITS users have noticed benefits such as reduced banking
fees and avoiding lost interest (LDAs do not pay interest).

Criteria
The DoD FMR, volume 5, chapter 14, “Limited Depository Checking Accounts” states:

       DOs shall review the LDA on a continuing basis to ensure that: account balances
       are maintained at the minimum amount necessary to meet immediate


                                           21
       disbursement needs (checks issued and in process) and are commensurate with the
       activity in the LDA, balances in excess of immediate needs are promptly
       withdrawn and deposited with the Treasury Department, and terms negotiated
       with the depository are favorable to the Government, including interest on the
       account at the highest possible rate.

Review of Limited Depository Account Balances
The Army cannot determine whether Treasury’s ITS is being used effectively to keep
funds held in LDAs at the minimum needed to support Army operations. The Army
LDA holders we visited had a variety of approaches for reducing their LDAs and were
not consistent in their use of ITS. However, because of a lack of guidance in reviewing
LDAs, we were unable to determine whether the Army LDA holders effectively
minimized their LDA balances. Specifically, the DoD FMR does not describe how the
DOs are to determine the minimum amount of cash necessary for operations.

Despite this limitation, we evaluated the process for reviewing LDAs used by the three
main LDA holders we visited. Individual LDA holders had made significant steps to
reduce their LDA balances. For example, during the course of our audit FINCOM
determined that it could eliminate an LDA based in Kuwait that had a balance of $47.3
million, as of June 30, 2007. In addition, FINCOM is trying to increase the use of
electronic fund transfers to make contract payments in Iraq (See Appendix G). FINCOM
determined that ITS was not practical elsewhere because of limitations with DDS and
ITS. Although FINCOM has taken positive steps to reduce the funds held in LDAs,
during our review there was no clear and consistent way to review LDAs and determine
whether ITS was being fully used.

DFAS Disbursing Operations has determined that the majority of LDAs for which it is
responsible cannot be replaced with ITS because of problems processing ITS transactions
in Afghanistan caused by problems processing the Afghani currency. Nonetheless,
during our audit work, DFAS Disbursing Operations determined that it may be able to
use ITS to reduce its LDAs in Europe and Japan, which have a combined balance of
$1.4 million.

USACE determined that the conversion to ITS would not result in time or cost savings.
As previously stated, $771 million of the LDA balance held by the USACE is based on
Status of Forces Agreements and cannot be eliminated or significantly reduced by using
ITS.
Limited Depository Account Review Guidance
The DoD Comptroller has not established objective guidelines to evaluate funds needed.
Although the DoD FMR requires that DOs review their LDAs, the DoD FMR does not
describe how the DOs are to determine the minimum amount necessary. In addition, the
DoD FMR does not require the use of ITS. With the exception of an LDA balance that is
required to meet the Status of Forces Agreement with the Republic of Korea, the DoD
lacks guidance requiring the elimination or reduction of LDA balances, by the increased
use of ITS. Without guidance requiring the use of ITS, LDA holders do not have
sufficient incentive to optimize their cash management.

Benefits of Consistent Limited Depository Account
Review
The U.S. Army may be holding $172 million more than is necessary in LDAs. Because
of a lack of consistency in the review of LDAs, individual DOs are unable to make


                                           22
informed decisions on the merits of using ITS to reduce LDAs—leading to increased
costs from holding LDAs. Guidance requiring the use of ITS, with certain exceptions,
will encourage DoD to reduce its LDA amounts and has the potential for significant cost
savings.

Corrective Action
As a result of our audit, the Deputy Chief Financial Officer of the Office of the
Undersecretary of Defense, Comptroller has taken appropriate corrective action.
Specifically, on February 12, 2008, the Deputy Chief Financial Officer of the Office of
the Undersecretary of Defense, Comptroller issued the memorandum, “Foreign
Disbursing Operations-International Treasury Services Usage,” which states, “disbursing
officers are encouraged to use ITS.gov where the infrastructure will support its usage.”
Therefore, further recommendations are not necessary. See Appendix J for the
memorandum in its entirety.

Client Comments on the Finding and Our Response
Although not required to comment, the Deputy Assistant Secretary of the Army
(Financial Operations) provided comments on the finding. For the full text of the DASA
(FO) Comments, see the Client Comments section of the report.

Client Comments
The DASA (FO) stated that they believed that LDA balances that could be reduced or
converted to ITS should not include LDAs representing burden-sharing funds provided
by Japan and Korea. Further, the DASA (FO) explained that although some reductions in
LDAs are feasible, elimination of many of the LDAs would require significant
reprogramming of disbursing systems, as well as improvement to banking systems in host
countries.


Our Response
We worked with the DASA (FO) to reduce LDA balances identified that could be
converted to ITS or otherwise reduced from $270 million to $172 million, so that they do
not include burden-sharing funds provided by Japan and Korea.




                                           23
24
Finding G. Accuracy of Cash Categorization
U.S. Army Finance Command disbursing offices using the Deployable Disbursing
System misclassified more than $266 million in Cash and Other Monetary Assets on the
Army’s balance sheet as of June 30, 2007. Specifically, one DSSN misclassified
$31,025,240.07 of Contingency Cash (line 6.4) as Funds with Agents (line 6.5), and
another DSSN misclassified $235,092,928.00 of Contingency Cash (line 6.4) as a
Limited Depository Account (Line 6.1). This occurred because the DoD and Army
disbursing and accounting systems do not permit information to be posted to Contingency
Cash (line 6.4). As a result, managers do not have accurate data for identifying and
managing risk over Cash and Other Monetary Assets, and auditors are prevented from:
obtaining accurate data, selecting audit samples, selecting audit sites, and planning the
nature and timing of audit tests of Cash and Other Monetary Assets.


Reporting Process
The Army does not use a transaction-driven general ledger. Instead, it reports COMA on
the balance sheet by using the consolidated SOA. FINCOM uses the DDS and SRD-1
systems to report their accountability. DDS is a local area network-based disbursing
system that integrates other systems within the finance office. DDS produces the SF
1219, SOA, as well as the DD 2657, “Daily Statement of Accountability Summary.”
Data from these systems are consolidated into the STANFINS system and then used to
support the consolidated SOA, which is manually posted by journal voucher to the AGF.

DOs must report their contingency cash, which is held in a custody/contingency account
at contractor-operated military banking facility (MBF). The DoD FMR, volume 5,
chapter 12, defines a contingency cash account as an arrangement approved by Treasury
where safety stocks of U.S. currency on the books of overseas military central funding
officers are held in the Government's contractor-operated MBF. DOs report contingency
cash on line 6.4 of the SOA. This serves as the MBF vault cash, and there is a daily
settlement between the MBF operator and the central funding officer.

The DoD FMR defines an MBF as a banking office located on a DoD installation and
operated by a financial institution that the Treasury specifically has authorized, to be a
“Depository and Financial Agent of the U.S. Government,” that provides certain banking
services. MBFs have approximately 100 branch offices and 300 automated teller
machines (ATMs) in the following countries: Germany, Netherlands, United Kingdom,
Iceland, Japan, South Korea, Diego Garcia, Cuba (Guantanamo Bay), Honduras, and
Kwajalein. The Overseas Military Banking Program contract is maintained by DFAS.
Contract MDA210-02-D-0003 establishes the Overseas Military Banking Program
requirements and the support provided by the DoD.

Criteria
According to OMB Circular A-123, “Management’s Responsibility for Internal Control,”
December 21, 2004, management is responsible for establishing and maintaining internal
controls to achieve the effective and efficient operations, reliable financial reporting, and
compliance with applicable laws and regulations. OMB Bulletin 07-04, “Audit
Requirements for Federal Financial Statements,” September 4, 2007, establishes the
components of executive departments and agencies required to prepare financial
statements. One of the components listed for the Department of Defense is “Department
of Army General Funds.” Treasury Financial Manual, volume I, part 2, chapter 3100,
“Instructions for Disbursing Officers’ Reports,” paragraph 3130.20, says that the SF


                                             25
1219, SOA, is used to determine the accountability of disbursing officers for funds held
outside the Treasury (cash on hand). According to this guidance, the Army should
submit a file of FMS Form 1219 data directly to FMS.

According to DoD FMR volume 5, chapter 12, “Foreign Disbursing Operations,” section
1201, “Monetary Regulations,” paragraph 120103, the balance held in the custody
account is reported on line 6.4 of both the DD Form 2657 and the SF 1219. DoD FMR,
volume 5, chapter 19, “Disbursing Officer Accountability Reports,” section 190205.F
1902, “Preparation of DD Form 2657,” states that the amount reported on line 6.4
includes cash held under custody account agreements in overseas contract MBFs or
Treasury approved cash held for contingency requirements.


Cash Categorization
FINCOM disbursing offices using DDS misclassified more than $266 million COMA on
the Army’s balance sheet, as of June 30, 2007. Specifically, one DSSN misclassified
$31,025,240.07 of Contingency Cash (line 6.4) as Funds with Agents (line 6.5), and
another DSSN misclassified $235,092,928 of Contingency Cash (line 6.4) as Limited
Depository Account (Line 6.1). The DoD FMR requires the disbursing offices to report
contingency cash on Line 6.4 of the SOA.

Contingency Cash Reporting
DDS and other related Army and DoD disbursing and accounting systems do not permit
information to be posted to Contingency Cash (line 6.4) of the SOA. The DDS program
manager acknowledged that DDS has limitations that do not allow DDS users to input
data on line 6.4 on the SOA. Also, the program manager stated that a software correction
to DDS alone would not correct the problem. The program manager informed us that the
problem affects other systems and other users as well, including: DFAS Rome,
STANFINS, and the DFAS functions that use Headquarters Accounting and Reporting
System (DFAS Indianapolis Disbursing Operations Directorate and the DFAS
Indianapolis Audited Financial Statement Directorate). The program manager explained
that DFAS Rome manually inputs all SOA data into STANFINS, but STANFINS is
unable to populate data on line 6.4 of the SOA. The Departmental Accounting personnel
who prepare the AGF financial statements explained that all SOA line 6 items are
consolidated as COMA on the financial statements.
Auditability
Managers do not have accurate data for identifying and managing risk over COMA, and
there is more than a remote likelihood that a misstatement of the financial statements, or
other significant financial reports, will not be prevented nor detected. OMB requires
Federal managers to be responsible for establishing and maintaining internal controls to
achieve effective and efficient operations, reliable financial reporting, and compliance
with applicable laws and regulations.

Finally, auditors cannot effectively assess whether COMA is being reported accurately.
Specifically, auditors are prevented from obtaining accurate data, selecting audit samples,
selecting audit sites, and planning both the nature and timing of audit tests to verify
management assertions over COMA.




                                            26
Recommendation, Client Comments, and Our Response
G. We recommend that the Deputy Assistant Secretary of the Army (Financial
Operations):

        Provide consistent guidance and procedures for reporting Contingency Cash
for DoD contractor-operated military banking facilities to overcome systems
limitations.


Client Comments
The Deputy Assistant Secretary of the Army (Financial Operations) concurred. The
Army central funding offices in Europe and Korea have been directed to record
contingency cash as funds maintained in a local depository account.


Our Response
We consider the DASA (FO) comments to be responsive.




                                         27
28
Finding H. Intelligence Contingency Funds
Disbursing officers at a finance command we visited were unable to verify that
disbursements involving Intelligence Contingency Funds were supported by receipts.
This occurred because the disbursing officers were unable to obtain the results of audits
performed by the Army Audit Agency, Army, Deputy Chief of Staff, G-2, and Army
Commands that use Intelligence Contingency Funds. As a result, disbursing officers
were unable to provide assurance that funds for which they were accountable were used
as stated.


Criteria
DoD FMR, volume 5, chapter 11, “Disbursements,” February 2006, requires that
supporting documentation for classified payments be retained at the office where it was
prepared, along with other classified material.

The Army, Deputy Chief of Staff, G-2 is responsible for policy formulation, planning,
programming, budgeting, management, staff supervision, evaluation, and oversight for
intelligence activities for the Army. The Deputy Chief of Staff, G-2 provides guidance
on the audits of Intelligence Contingency Funds through Army Regulation (AR) 381-141,
“Intelligence Contingency Funds,” July 30, 1990.

According to AR 381-141, requires the Army Audit Agency; Army, Deputy Chief of
Staff, G-2; and any Army commands that use Intelligence Contingency Funds must audit
the offices that are involved with disbursing Intelligence Contingency Funds. AR 381-
141 requires the results of audits of Intelligence Contingency Funds to be forwarded to
Army, Deputy Chief of Staff, G-2, but it does not prescribe procedures for relaying the
results of these audits to the servicing disbursing offices. Because AR 381-141 is
classified, the distribution and contents of the regulation are restricted.

Intelligence Contingency Funds Disbursement Support
DOs at a finance command we visited were unable to verify that disbursements involving
Intelligence Contingency Funds were supported by receipts. DoD FMR volume 5,
chapter 11 requires Army commands that use Intelligence Contingency Funds to forward
only their vouchers, not the receipts that support the vouchers, to the servicing disbursing
offices. Further, DOs were not able to verify the vouchers themselves and could not
obtain the results of independent reviews of the Intelligence Contingency Funds
disbursements.

Distribution of Audit Results
The DOs did not have access to classified receipts, did not receive the results of audits of
the classified disbursements, and, because of the classified nature of the AR 381-141,
were not even aware that an Army regulation required routine audits of classified
disbursements. Although AR 381-141 required the audits of Army Commands that use
Intelligence Contingency Funds to verify the support for disbursement, it did not require
that the results of those audits be forwarded to DOs. Therefore, Army, Deputy Chief of
Staff, G-2 did not forward the results of audits of Intelligence Contingency Funds to DOs.
Without the appropriate notification, the DOs were not able to provide assurance that the
required documentation to support the disbursements of Intelligence Contingency Funds
was being retained at the voucher-preparing office, as required by DoD financial
regulations.


                                            29
Corrective Action Taken
As a result of our audit, Army, Deputy Chief of Staff, G-2 issued an interim policy to
AR 381-141 requiring that an unclassified memorandum be sent to Army Finance
Command management after every audit of Intelligence Contingency Funds
disbursements stating whether the vouchers and supporting documentation for
disbursements were being maintained in accordance with DoD financial regulations (See
Appendix L). We believe that the corrective action taken has resolved this issue.
Therefore, further recommendations are not necessary.




                                          30
Appendix A. Scope and Methodology
We conducted this performance audit from February 2007 through January 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Observations and findings in this report are as of June 30, 2007. We visited Defense
Finance and Accounting Service Indianapolis and the U.S. Army Corps of Engineers
Finance Center in Millington, Tennessee. We visited the following disbursing field sites
outside of the continental U.S. from June through July 2007:

   •   Yongsan, South Korea;
   •   Camp Humphreys, South Korea;
   •   Camp Casey, South Korea;
   •   Taegu, South Korea;
   •   Mons, Belgium;
   •   Heidelberg, Germany;
   •   Kaiserslautern, Germany; and
   •   Mannheim, Germany.

We were not able to perform site visits in Southwest Asia due to scheduling conflicts
with other audits being performed by the DoD OIG in the region. Accordingly, we
announced a separate audit, Project No. D2008-D000FP-0132.000, “Internal Controls
over Army, General Fund, Cash and Other Monetary Assets Held in Southwest Asia,” on
February 25, 2008 to review whether internal controls for Army, General Fund, Cash and
Other Monetary Assets held in Southwest Asia are effectively designed and are operating
to adequately safeguard, account for, document, and report Cash and Other Monetary
Assets.

We reviewed the internal controls over Army Cash and Other Monetary Assets that are
accounted for OCONUS. The Army General Fund reported $2.2 billion on the COMA
line as of June 30, 2007. The Army General Fund COMA includes $26.7 million
CONUS and $2.19 billion OCONUS. We observed conditions, verified existence,
compared documents, interviewed staff, and analyzed documents to determine whether
internal controls were designed and operating as intended. Specifically, we verified the
existence of Cash and Other Monetary Assets as reported on the daily SOA; confirmed
payment and collection documents to ensure sufficient internal controls over cash and
disbursing; reviewed security programs for disbursing offices; verified the SOA for
completeness, accuracy, and existence of disbursements; and reviewed the disbursing
office’s reconciliation of its limited depository accounts. Additionally, we reviewed the
following accountability forms, where applicable, for accuracy, completeness and
timeliness:

   •   Statement of Agent Officer’s Account (DD Form 1081),
   •   Daily Statement of Accountability (DD Form 2657),
   •   Daily Agent Accountability Summary (DD Form 2665), and
   •   Statement of Accountability (SF 1219).




                                            31
Further, we inquired into the uses and amounts of COMA obtained by the field sites
during the period under review. We also performed analytical procedures and a review
of the compilation process used to report the COMA balance on the Army GF balance
sheet.

Review of Internal Controls
We identified material internal control weaknesses with Army and DFAS Indianapolis as
defined by DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
January 4, 2006. They are significant enough to be reported to the next higher level of
management. Specifically, we identified the following material management control
weaknesses:

   •   Army internal controls were not in place to ensure a verifiable detailed listing of
       the universe of COMA reported on the Army SOA and AGF balance sheet
       (finding A). Recommendations A.1.a and A.1.b, if implemented, will develop
       and maintain a centralized system to identify all disbursing officers, deputy
       disbursing officers, and paying agents that report to the disbursing officer by
       location and the amounts for each category of COMA as reported on the SOA.

   •   DFAS Disbursing Operations internal controls over reporting disbursements and
       collections by deputy disbursing officers in Afghanistan were not adequate to
       ensure the accuracy of the COMA line item (finding B). Recommendation B, if
       implemented, will facilitate the timely recording of Afghanistan disbursements.

   •   OUSD(C)/CFO internal controls over reporting COMA assets on the AGF
       balance sheet were not adequate to ensure that COMA was fairly presented on the
       June 30, 2007, balance sheet (finding D). This is addressed in the DoD Wide
       Report, “Internal Controls Over DoD Agency-Wide Cash and Other Monetary
       Assets.” Therefore, a recommendation will not be made in this report.

   •   Army internal controls were not adequate to ensure the accurate categorization of
       COMA on the Army’s SOA (finding G). Recommendation G.1.a, if
       implemented, will establish procedures and processes to allow for the accurate
       categorization of COMA on the Army’s Statement of Accountability.

   We also identified the following deficiencies in internal control during our fieldwork.
   However, corrective actions were taken, and we believe that the corrections resolved
   these issues.

       •   DFAS internal controls over compiling input to the balance sheet were not
           adequate to ensure the accuracy of the COMA line item (finding C). Based on
           our audit, DFAS Indianapolis developed procedures to correct this. We
           believe that the corrective action has resolved this issue.

       •   Internal controls promulgated by the OUSD(C)/CFO over the method of
           payment for Official Representation Fund Payments were not adequate
           (finding E). Based on our audit, OUSD(C)/CFO issued a memorandum that
           makes the Government Purchase Card the preferred method of payment. We
           believe that the corrective action has resolved this action.




                                            32
       •   OUSD(C)/CFO internal controls over limited depositary accounts were not
           adequate to ensure account balances are kept at a minimum (finding F).
           Based on our audit, OUSD(C)/CFO issued a memorandum that encourages
           disbursing officers to use ITS.GOV when possible. We believe that the
           corrective action has resolved this issue.

       •   Army internal controls over the verification of Intelligence Contingency
           Funds were not adequate (finding H). As a result of our audit, DCS G-2
           issued an change to AR 381-141 requiring that an unclassified memorandum
           be sent to FINCOM management stating that an inspection was conducted,
           funds were used for the stated purpose, and no significant issues were noted.
           We believe that the corrective action has resolved this issue.

Adequacy of Management’s Self-Evaluation. DFAS and Army management’s self-
evaluation was not adequate. DFAS and Army officials did not include the internal
control deficiencies listed above in its assessable units. Additionally, DFAS and Army
management did not report the material management control weaknesses identified by the
audit.

We will provide a copy of this report to the senior officials responsible for internal
controls in the Department of the Army and DFAS Indianapolis.

Use of Computer-Processed Data
We used a limited amount of computer-processed data for this report. Specifically, we
obtained SF 1219s (and selected other forms) produced by Deployable Disbursing
System, Corps of Engineers Financial Management System, and Standard Finance
System-Redesign Subsystem 1 at our various site visits. We tested existence controls
over Cash and Other Monetary Assets, which allowed us to verify relevant portions of the
SF 1219s. We did not find errors that would preclude the use of computer-processed data
to meet audit objectives or that would change the conclusions in the report.


Use of Technical Assistance
We did not use technical assistance to perform this audit.


Government Accountability Office High-Risk Area
The Government Accountability Office has identified several high-risk areas in DoD.
This report provides coverage of the DoD Financial Management high-risk area.




                                             33
34
Appendix B. Prior Coverage
 During the last 5 years, the Department of Defense Inspector General (DoD IG), U.S.
Army Audit Agency (AAA), U.S. Air Force Audit Agency (AFAA), Coalition
Provisional Authority (CPA), and the Special Inspector General for Iraq Reconstruction
(SIGIR) having issued 14 reports discussing cash and other monetary assets.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2007-028, “Controls Over Army Cash and Other Monetary
Assets,” November 24, 2006

Army
AAA Report No. A-2005-0206-FFG, “Validation of the Statement of Accountability,
Attestation of Disbursing Station Symbol Number 8551 336th Finance Command, Camp
Arifjan, Kuwait,” June 29, 2005

AAA Report No. A-2005-0136-ALW, “Attestation Examination of Selected Army Chief
Financial Officers Strategic Plan Tasks-Fund Balance With Treasury,” March 18, 2005

AAA Report No. A-2005-0127-ALW, “Validation of the Army's Fund Balance With
Treasury,” March 10, 2005

AAA Report No. A-2005-0104-ALW, “Disbursing Station Expenditure Operations-
DoD Disbursing Station Number 5570,” February 14, 2005

AAA Report No. A-2004-0431-AMW, “Validation of the Army's Fund Balance With
Treasury, Defense Finance and Accounting Service Columbus Center,” August 3, 2004

Air Force

AFAA Report No. F2006-0006-FD3000, “Central Command Air Forces Deployed
Locations Cash Management,” August 3, 2006

AFAA Report No. F2003-0003-FB4000, “Nonappropriated Fund Cash Controls,”
December 30, 2002

AFAA Report No. F2002-0007-B05400, “Follow-up Audit, Controls Over Air Force
Cash,” June 20, 2002




                                          35
Coalition Provisional Authority

Office of the Inspector General for the Coalition Provisional Authority Report Number
04-008, “Coalition Provisional Authority Control Over Seized and Vested Assets,” July
30, 2004

Office of the Inspector General for the Coalition Provisional Authority Report Number
04-007, “Oil for Food Cash Controls for the Office of Project Coordination in Erbil,
Iraq,” July 26, 2004

Special Inspector General for Iraq Reconstruction

SIGIR Memorandum Number 06-024, “Joint Cash Count: Iraq National Weapons Card
Program,” July 26, 2006

SIGIR Report Number 06-010, “Review of the Multi-National Security Transition
Command-Iraq Reconciliation of the Iraqi Armed Forces Seized Assets Fund,” April 28,
2006

SIGIR Report Number 06-002, “Prompt Payment Act: Analysis of Expenditures Made
From the Iraq Relief and Reconstruction Fund,” February 3, 2006




                                          36
Appendix C. Glossary
Deputy Disbursing Officer. An individual appointed by the disbursing officer to act in
the name of that disbursing officer to perform any and all acts relating to the receipt,
disbursement, custody, and accounting for public funds. The disbursing officer making
the appointment may restrict the acts a deputy is authorized to perform. All deputy
disbursing officer appointees must be U.S. citizens.

Disbursing Agent. An agent to the disbursing officer that has not been appointed as a
deputy disbursing officer. Generally, a disbursing agent operates a permanently located
disbursing office of considerable size that is geographically separated from the disbursing
officer's office; however the use of disbursing agents is not restricted to geographic
separation from the DO.

Disbursing Office. An organization whose principal function consists of the
disbursement, collection, and reporting of public funds. The term “disbursing office”
includes both tactical and nontactical disbursing activities. Each disbursing office will
have a disbursing officer and should have at least one deputy position, which is under the
direct cognizance and control of the disbursing officer.

Disbursing Officer. A military member or a civilian employee of a DoD component
designated to disburse monies and render accounts according to laws and regulations
governing the disbursement of public monies. All DO appointees must be U. S. citizens.

Disbursing Station Symbol Number (DSSN). A four-digit number assigned to each
disbursing office by the Department of the Treasury. The DSSN is an identification
number that indicates authority to receive and disburse public funds and issue checks
from the United States Treasury.

Electronic Funds Transfer. Transfer of funds, other than a transaction originated by
cash, check, or similar paper instrument, that is initiated through an electronic terminal,
telephone, or computer for the purpose of ordering, instructing, or authorizing a financial
institution or authorized payment agent to debit or credit an account.
Limited Depository Account. A checking account in a foreign currency maintained in a
limited depository by a disbursing officer in his or her name. Limited depository
accounts also may be referred to as operating accounts.

Official Representation Funds Payments. The purpose of ORF is “to host official
receptions, dinners, and similar events, and to otherwise extend official courtesies to
guests of the United States and the Department of Defense for the purpose of maintaining
the standing and prestige of the United States and the Department of Defense.” These
events are often dinners and other events to build relations with local officials.

Paying Agent. The purpose of a paying agent is to make specific payments, currency
conversions, or check cashing transactions from funds temporarily advanced to the agent
by the disbursing officer. Paying agents are individuals whose regular duties do not
involve disbursing functions and who are not located in the disbursing office.




                                            37
38
Appendix D. Total Balance Sheet
Overstatement
As of June 30, 2007, internal control and cash processing weaknesses had resulted in a
$320,975,368 overstatement of Army General Fund Cash and Other Monetary Assets.

              Finding                    Amount of Overstatement
B. Reporting Disbursements                   $113,875,757
C. Duplicate Reporting                             994,315
D. Reporting of Non-COMA Assets                206,105,296
Total Overstatement                          $ 320,975,368




                                           39
40
Appendix E. Statement of Accountability
                                SF 1219 STATEMENT OF ACCOUNTABILITY
       PART A - TRANSACTIONS DURING PERIOD AFFECTING ACCOUNTABILITY

1.0           TOTAL ACCOUNTABILITY BEGINNING OF PERIOD                                 0.00
1.2           TOTAL ACCOUNTABILITY BEGINNING OF PERIOD (FOREIGN CURRENCY)              0.00
2.0                                     INCREASES IN ACCOUNTABILITY
2.1           CHECKS ISSUED ON U.S. TREASURY                                    0.00
       2.11   CHECKS ISSUED/ADJUSTMENTS-TFS FORM 5206                           0.00
       2.12   CHECKS ISSUED/ADJUSTMENTS-215 PAYMENT VOUCHERS                    0.00
2.3           OTHER TRANSACTIONS                                                0.00
       2.34   DISCREPANCIES IN D.O. ACCOUNTS – CREDITS                          0.00
       2.36   PAYMENTS BY ANOTHER D.O.                                          0.00
       2.37   TRANSFERS FROM OTHER DISBURSING OFFICERS                          0.00
       2.39                                                                     0.00
2.8           IPAC PAYMENTS AND COLLECTIONS                                     0.00
2.9                                                 TOTAL INCREASE IN ACCOUNTABILITY   0.00
3.0                                                                       SUBTOTAL     0.00
4.0                                    DECREASES IN ACCOUNTABILITY
4.1           NET DISBURSEMENTS                                                 0.00
4.2           DEPOSITS PRESENTED OR MAILED TO BANK                              0.00
4.3           OTHER TRANSACTIONS                                                0.00
       4.34   DISCREPANCIES IN D.O. ACCOUNTS – DEBITS                           0.00
       4.36   PAYMENTS FOR ANOTHER D.O.                                         0.00
       4.37   TRANSFERS TO OTHER DISBURSING OFFICERS                            0.00
       4.39                                                                     0.00
4.9           TOTAL DECREASES IN ACCOUNTABILITY                                        0.00

5.0                                           TOTAL ACCOUNTABILITY CLOSE OF PERIOD     0.00
5.2                        TOTAL ACCOUNTABILITY CLOSE OF PERIOD (FOREIGN CURRENCY)     0.00

       PART B - ANALYSIS OF INCUMBENT OFFICER'S ACCOUNTABILITY
6.1             CASH ON DEPOSIT IN DESIGNATED DEPOSITARY                               0.00
6.2             CASH ON HAND AND IN TRANSIT TO TREASURY                                0.00
6.3             CASH - UNDEPOSITED COLLECTIONS                                         0.00
6.4             CUSTODY OR CONTINGENCY CASH                                            0.00
6.5             CASH IN CUSTODY OF GOVERNMENT CASHIERS                                 0.00
6.6             ADVANCES TO CONTRACTORS                                                0.00
6.7             CASH IN TRANSIT                                                        0.00
6.8             PAYROLL CASH                                                           0.00
6.9             OTHER CASH ITEMS                                                       0.00
7.1             DEFERRED CHARGES -VOUCHERED ITEMS                                      0.00
7.3             LOSSES OF FUNDS                                                        0.00
7.4             RECEIVABLES - DISHONORED CHECKS                                        0.00
8.0                                                      TOTAL OF MY ACCOUNTABILITY    0.00

       PART C - PREDECESSOR OFFICER'S ACCOUNTABILITY
9.2             RECEIVABLES- CHECK OVERDRAFTS                                          0.00
9.3             LOSSES OF FUNDS                                                        0.00
9.4             OTHER ACCOUNTABILITY                                                   0.00
10.0                       TOTAL PREDECESSOR OFFICER'S ACCOUNTABILITY                  0.00
11.0                       TOTAL DISBURSING OFFICER ACCOUNTABILITY                     0.00




                                                  41
42
Appendix F. Official Representation Funds
Memorandum




                     43
44
Appendix G. Electronic Funds Transfer
Contract Payment Memorandum




                    45
46
Appendix H. Non-Cash Statement of
Accountability Line Items
Line Item Number   Statement of Accountability Line Item and Definition
6.6                Advances to Contractors. Used to record cash advanced to
                   contractors under advance pool agreements.
6.9                Other Cash Items. Used for exchange-for-cash checks prepared
                   in advance and pre-positioned checks awaiting pickup by a
                   Deputy DO, disbursing agent, or cashiers.
7.1                Deferred Charges-Vouchered Items. Used to record any paid
                   voucher that has not been recorded in the accounting system.
7.2                Receivables-Check Overdrafts. Used for check issue overdraft
                   increases and for any disbursements or collections against and
                   undercharged appropriation reducing the check issue overdraft.
7.3                Loss of Funds. Used to record any physical losses of cash,
                   negotiable instruments, and uncollected dishonored check
                   amounts.
7.4                Receivables-Dishonored Checks. Used for any dishonored
                   checks received that are to be retained in DO accountability. Also
                   for dishonored checks collected or for which relief has been
                   granted that are currently carried in DO accountability.
9.2                Receivables-Check Overdrafts. Used by incumbent DO to
                   settle the predecessor DO accounts. Compute in the same manner
                   as Line 7.2.
9.3                Loss of Funds. Used by incumbent DO to settle the predecessor
                   DO accounts. Compute in the same manner as Line 7.3.
9.4                Other Accountability. Used by incumbent DO to settle the
                   predecessor DO accounts. Compute in the same manner as Line
                   7.4.




                                       47
48
Appendix I. Army Disbursing Stations
Visited
DSSN                    Location of Disbursing Office
5023   Yongsan, South Korea
5499   Mons, Belgium
5570   DFAS-Indianapolis, U.S.
6387   Kaiserslautern, Germany
6411   Yongsan, South Korea
6411   Camp Humphreys, South Korea
6411   Camp Casey, South Korea
6411   Taegu, South Korea
6460   Mannheim, Germany
8548   Heidelberg, Germany
8735   USACE Finance Center, Millington, Tennessee




                                      49
50
Appendix J. Guidance for International
Treasury Services Usage




                     51
52
Appendix K. Reporting Entities and
Computer Systems Used to Manage COMA
            Reporting Entity                            Computer System Used
Finance Commands                              Deployable Disbursing System
Defense Finance and Accounting Service        STANFINS Redesign Subsystem 1
U.S. Army Corps of Engineers                  Corps of Engineers Financial Management
                                              System




                                         53
54
Appendix L. Interim Change to AR 381-141,
Intelligence Contingency Funds




                    55
56
Army Comments




                57
58
59
60
Defense Finance and Accounting Service
Indianapolis Comments




                    61
62
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia Marsh
Douglas Neville
Edward Blair
James Fleischman
Mark Henricks
Susan McKaig
Thomas Daquano
William Fagerholm
Damarus Sanders
Marcus Gullett
Ellen Kleiman-Redden
